             COMPILATION OF THE FY 2000 NAVY
      WORKING CAPITAL FUND FINANCIAL STATEMENTS


Report No. D-2001-155                      July 3, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CDB                   Central Data Base
DBMS                  Defense Business Management System
DDRS                  Defense Departmental Reporting System
DFAS                  Defense Finance and Accounting Service
IG                    Inspector General
JV                    Journal Voucher
USGSGL                U.S. Government Standard General Ledger
WCF                   Working Capital Fund
                       Office of the Inspector General, DoD
Report No. D-2001-155                                                      July 3, 2001
  (Project No. D2000FC-0279.004)

        Compilation of the FY 2000 Navy Working Capital Fund
                         Financial Statements

                                   Executive Summary

Introduction. We performed this audit in response to the Chief Financial Officers Act
of 1990, as amended by the Federal Financial Management Act of 1994, which requires
DoD to provide audited financial statements to the Office of Management and Budget.
This is the fifth and final report on our audit work on the FY 2000 Navy Working
Capital Fund Financial Statements and related controls and supporting financial data.
The previous reports dealt with inventory valuation, problems with a financial feeder
system, intragovernmental transactions, and our endorsement of the Naval Audit
Service disclaimer of opinion on the financial statements. These reports are listed in
Appendix A. The Defense Finance and Accounting Service (DFAS) provides finance
and accounting support, maintains the official accounting records, and prepares the
financial statements using data from supporting field offices. The FY 2000 Navy
Working Capital Fund Financial Statements reported total assets of $25.1 billion and
total liabilities of $6 billion as of September 30, 2000. Also, the FY 2000 financial
statements showed earned revenue of $13.7 billion and program costs of $13.6 billion.

Objectives. The overall audit objective was to determine the reliability and
effectiveness of processes and procedures used to compile and prepare the FY 2000
Navy Working Capital Fund Financial Statements. We reviewed DFAS Cleveland
processes for consolidating and summarizing financial data from Navy Working Capital
Fund field organizations. We also reviewed DFAS Cleveland processes and procedures
for recording journal vouchers to adjust accounting data provided by Navy Working
Capital Fund field organizations, DFAS accounting offices and other sources. In
addition, we reviewed management controls and compliance with laws and regulations
as they related to the audit objective.

Results. DFAS Cleveland and Kansas City recorded 974 departmental-level journal
vouchers, valued at $947.3 billion, that affected the FY 2000 financial statements.
Review of 658 journal vouchers showed that 432 journal vouchers, valued at
$885.9 billion, were supported or proper. A prior report addressed 95 of 151 journal
vouchers, valued at $28.8 billion, related to intragovernmental transactions that were
not adequately supported.

Of the remaining 507 journal vouchers reviewed, 70 journal vouchers, valued at
$19.4 billion, were unsupported. Although DFAS personnel provided adequate
supporting documentation in some cases up to 42 days after we requested the
information, current DFAS guidance requires supporting documentation to be available
within 5 workdays after the journal vouchers are approved. Also 61 journal vouchers,
valued at $10.7 billion, were out of balance because of interface and incompatibility
problems with feeder systems. As a result, we could not rely on data created by
unsupported journal vouchers and DFAS personnel were required to adjust data
unnecessarily to enter data from legacy accounting feeder systems. Recording
unsupported journal vouchers adversely affected the reliability of the FY 2000 financial
statements (finding A).

DFAS Cleveland did not adequately document the audit trail from the ending trial
balance in the Central Data Base to the opening trial balance in the Defense
Departmental Reporting System. Adjustments of $5.9 billion were made for financial
reporting purposes. The adjustments were not sufficiently documented to permit
tracing amounts from the source data within the Central Data Base to amounts reported
on the financial statements by the Defense Departmental Reporting System. As a
result, the inadequately documented transition made it difficult to verify that the
calculations were consistently made (finding B).

Summary of Recommendations. We recommend that DFAS comply with guidance
for recording Centralized Expenditure and Reimbursement Processing System balances,
both inception to date and current year balances, in the activity general ledgers and
reconciling any differences; require accounting personnel to provide adequate
supporting documentation for all journal vouchers; import the Central Data Base trial
balance to the Defense Departmental Reporting System without modification; develop
standard operating procedures and documentation for adjusting accumulated operating
results and record those adjustments in the Defense Departmental Reporting System;
and improve crosswalks and complete documentation for populating budgetary
information in the Defense Departmental Reporting System.

Management Comments. DFAS generally concurred with all recommendations
except the recommendations to import trial balance data directly into the Defense
Departmental Reporting Systems and record all adjustments to the trial balance using
journal vouchers to the Defense Departmental Reporting System. DFAS indicated that
adequate audit trails for the differences exist in offline spreadsheets. Although DFAS
concurred with the recommendation to provide adequate support for all journal
vouchers, it stated that adequate documentation for the journal vouchers existed. See
the Finding section of the report for a discussion of the management comments and the
Management Comments section of the report for the complete text of the comments.
Audit Response. We considered management comments responsive except for the
statement that offline spreadsheets rather than journal vouchers are a sufficient audit
trail to support changes between the Central Data Base and the Defense Departmental
Reporting System. We believe that any adjustment of Navy Working Capital Fund
financial information after the Central Data Base closes should be recorded in the
Defense Departmental Reporting System as a journal voucher and subjected to the
internal controls provided by that process. We request that DFAS reconsider its
position and provide additional comments to the final report by August 3, 2001.




                                            ii
Table of Contents

Executive Summary                              i


Introduction
     Background                                1
     Objectives                                2

Findings
     A. Journal Vouchers                       3
     B. Audit Trails                          12

Appendixes
     A. Audit Process
         Scope                                16
         Methodology                          17
         Management Control Program Review    18
         Prior Coverage                       18
     B. Report Distribution                   20

Management Comments
     Defense Finance and Accounting Service   23
Background
           The audit was performed as part of our efforts to meet the requirements of
           Public Law 101-576, the “Chief Financial Officers Act of 1990,” November 15,
           1990, as amended by Public Law 103-356, the “Federal Financial Management
           Act of 1994,” October 13, 1994. This report is the fifth and final in a series of
           reports on the FY 2000 Navy Working Capital Fund Financial Statements and
           related controls and supporting financial data. The previous reports dealt with
           inventory valuation, problems with a financial feeder system, intragovernmental
           transactions, and our endorsement of the Naval Audit Service disclaimer of
           opinion on the FY 2000 Navy Working Capital Fund Financial Statements. See
           Prior Coverage in Appendix A for a listing of the prior reports. This part of
           our audit focused on the Defense Finance and Accounting Service (DFAS)
           Cleveland processes and procedures to compile financial data received from
           Navy field organizations and other sources to prepare the FY 2000 Navy
           Working Capital Fund Financial Statements.

           Navy Working Capital Fund. The Navy Working Capital Fund (WCF)
           finances six primary activity groups, which provide support to the Navy and
           other authorized customers: Depot Maintenance, Transportation, Base Support,
           Information Services, Research and Development, and Supply Management.
           All of the primary activity groups except Supply Management are often referred
           to as the Industrial Fund business area. The FY 2000 Navy Working Capital
           Fund Financial Statements reported $25.1 billion in assets, $6 billion in
           liabilities, $13.7 billion in earned revenue, and $13.6 billion in program costs.

           DFAS Responsibilities. DFAS Cleveland performs accounting functions and
           prepares the financial statements for the Navy WCF. Each month, DFAS
           Cleveland received financial information in various forms from Navy WCF field
           organizations, DFAS accounting offices, and other organizations, and recorded
           the data into the Central Data Base (CDB) accounting system. DFAS Cleveland
           consolidated the financial data for each activity group and prepared both the
           monthly reports and annual financial statements for the Navy WCF. As part of
           the compilation process, DFAS Cleveland recorded JVs in the CDB and in
           offline financial reporting systems.

           Preparation of the Navy Working Capital Fund Financial Statements. At
           the end of FY 2000, DFAS Cleveland departmental accounting personnel
           performed the month-end processing functions and produced both the monthly
           reports and ending trial balance from the CDB system. General ledger accounts
           used for the CDB trial balance were then converted, or crosswalked, by DFAS
           Cleveland personnel into U.S. Government Standard General Ledger (USGSGL)
           format.1 In cases where the CDB trial balance could not be directly crosswalked
           into a USGSGL account, DFAS Cleveland departmental accounting personnel
           computed the values for certain USGSGL general ledger accounts using offline
           spreadsheets. The adjusted trial balance in USGSGL format was then uploaded
           into the Defense Departmental Reporting System (DDRS). DDRS is a software

1
    General ledger accounts in the CDB were converted to the USGSGL at the beginning of FY 2001. This
    should reduce the number of crosswalks that were required in prior years.
                                                   1
     application created during FY 2000, which was used to document ending trial
     balances from other accounting systems and adjustments necessary to produce a
     final trial balance used to prepare the annual financial statements.

Objectives
     The overall audit objective was to determine the reliability and effectiveness of
     processes and procedures used to compile and prepare the FY 2000 Navy
     Working Capital Fund Financial Statements. We reviewed DFAS Cleveland
     processes for consolidating and summarizing financial data from Navy WCF
     field organizations. We also reviewed DFAS Cleveland processes and
     procedures for recording JVs to adjust accounting data provided by Navy WCF
     field organizations, DFAS accounting offices and other sources. In addition, we
     reviewed management controls and compliance with laws and regulations as
     they related to the audit objective. See Appendix A for a discussion of the audit
     process and DFAS Cleveland management control program.




                                         2
                    A. Journal Vouchers
                    DFAS Cleveland and Kansas City recorded 974 departmental-level
                    journal vouchers (JVs), valued at $947.3 billion, that impacted amounts
                    reported on the FY 2000 Navy Working Capital Fund Financial
                    Statements.

                        •   173 JVs, valued at $37.5 billion, were related to
                            intragovernmental transactions. Review of 151 of those JVs,
                            valued at $37 billion, showed that 95 JVs, valued at
                            $28.8 billion, were not adequately supported. JVs and other
                            issues related to identifying and recording intragovernmental
                            transactions were discussed in a prior report.2

                        •   Of the remaining 801 JVs, review of 507 JVs, valued at
                            $907.8 billion, showed that 376 JVs, valued at $877.7 billion,
                            were supported, 70 JVs, valued at $19.4 billion, were
                            unsupported, and 61 JVs, valued at $10.7 billion, were out of
                            balance.

                    Incomplete documentation for the JVs occurred because DFAS
                    Cleveland personnel did not always comply with DoD guidance and
                    supporting accounting offices did not perform required reconciliations.
                    DFAS Cleveland personnel recorded 61 JVs that were out of balance in
                    order to correct errors caused by legacy3 DFAS feeder systems that
                    produced data that was incompatible with the CDB and to correct errors
                    caused by crosswalk problems. As a result, we could not rely on data
                    created by unsupported JVs, and DFAS personnel were required to
                    manipulate data unnecessarily to enter data from legacy accounting
                    feeder systems. Unsupported JVs adversely affected the reliability of the
                    FY 2000 Navy Working Capital Fund Financial Statements.

Guidance for Preparing Journal Vouchers
           DoD Regulation 7000.14-R, “DoD Financial Management Regulation,”
           volume 6, “Reporting Policies and Procedures,” February 12, 1996, requires
           DFAS to establish procedures to ensure that the preparation of financial
           statements is timely and auditable and that controls are in place to provide
           accurate and complete statements. The regulation states that DFAS should
           adequately support and justify in writing any adjustment to the official
           accounting records. The regulation also provides that the documentation of JVs
           should be detailed enough to provide an audit trail.


2
    The adequacy and supporting documentation for these JVs is discussed in Inspector General (IG), DoD,
    Report No. D-2001-139, “Compiling and Reporting FY 2000 Navy Working Capital Fund
    Intragovernmental Transactions,” June 18, 2001.
3
    A “legacy” accounting system does not comply with Federal accounting standards and will be replaced
    with a compliant system in the future. DoD prohibits funding major improvements to legacy systems.

                                                     3
    DFAS Director for Accounting memorandum, “Journal Voucher Guidance,”
    August 2, 2000, provides additional guidance for JVs. The memorandum
    prescribes operational internal controls for JV processing. It categorizes JVs by
    type and establishes specific documentation requirements for support of each
    adjustment type. Supervisory approval requirements are established based on
    the dollar value of the JV. All required supporting documentation must be
    identified and made available no more than 5 workdays after a JV is approved.
    In addition, JVs may be recorded based on summary-level collection and
    disbursement data. The support required for that type of transaction consists of
    the summarized collection and disbursement amounts. However, for audit trail
    purposes, the detailed transaction-level amounts are to be obtained from the
    transmittal source, when it becomes available.


Summary of Departmental-Level Journal Vouchers Recorded
    DFAS Cleveland and Kansas City recorded 974 departmental-level JVs, valued
    at $947.3 billion, in FY 2000. There were 173 JVs, valued at $37.5 billion,
    related to intragovernmental transactions. Our review of 151 of 173 JVs is
    discussed in IG, DoD, Report No. D-2001-139, June 18, 2001. Results of our
    review of the remaining 801 JVs, valued at $909.8 billion, are discussed in this
    report. Of the 801 JVs, DFAS Cleveland and Kansas City did not adequately
    support 70 JVs, valued at $19.4 billion; and 61 JVs, valued at $10.7 billion,
    were out of balance. The following table summarizes the results of our review.




                                        4
                            FY 2000 Departmental-Level Journal Vouchers
                                                 (dollars in billions)
                                                                                Out of
                                                                               Balance         Not
               JV Type                    Supported          Unsupported     (Improper1)    Reviewed      Total
                                            (JVs)               (JVs)           (JVs)         (JVs)       (JVs)

JVs in CDB

      Redistribution                             --                 $17.0           --             --        $17.0
                                                                     (26)                                     (26)

      Undistributed Disbursements                --                  $2.0           --             --         $ 2.0
        and Collections                                              (33)                                      (33)


      System Interface Problems                  --                 --             $ 9.62          --         $ 9.6
                                                                                     (55)                      (55)
      Other                                     $154.0               $0.4          $ 0.22         $ 2.0     $156.6
                                                 (256)                (4)            (4)          (294)      (558)
JVs for Cost of Goods Sold                      $720.5              --             $ 0.9           --       $721.4
   Model                                          (22)                                (2)                     (24)
JVs in DDRS

      Cleveland                                   $3.1              --              --             --         $3.1
                                                  (87)                                                        (87)

      Kansas City                                $0.05              $0.05           --             --         $ 0.1
                                                  (11)                 (7)                                     (18)

    Subtotal (discussed in this                 $877.7              $19.4         $10.7            $2.0     $909.8
                 report)                         (376)               (70)           (61)          (294)      (801)

    JVs for Intragovernmental                     $8.2              $28.8           --             $0.5      $37.5
      Transactions3                               (56)               (95)                          (22)      (173)

      Total Navy WCF                            $885.9              $48.2         $10.7            $2.5     $947.3
                                                 (432)              (165)           (61)          (316)      (974)

1
    These JVs were needed to correct out of balance conditions caused by feeder systems that provided
    incompatible data with the CDB. Because the JVs did not balance, they were included in our report on
    DoD-Wide Financial Statements IG, DoD, Report No. D-2001-070.
2
    The dollar values of out of balance JVs in the narrative are slightly different than the table due to rounding
    and the need to match the unsupported entries with the $10.7 billion total shown in the table. The
    $10.7 billion total for out of balance JVs was calculated based on JVs with debits of $9.8 billion posted in
    the CDB (credits were $9.3 billion) plus a one-sided credit entry to the Cost of Goods Sold model of
    $0.9 billion.
3
    These entries are discussed in a separate report on intragovernmental transactions, IG, DoD, Report
    No. D-2001-139.




                                                         5
Unsupported Journal Vouchers

    DFAS Cleveland and Kansas City recorded 70 JVs in support of the FY 2000
    financial statements, valued at $19.4 billion, which were not adequately
    supported. DFAS personnel were able to provide supporting documentation in
    some cases after we determined that support was inadequate. However, these
    JVs were considered as unsupported because DFAS guidance requires that all
    supporting documentation be available no later than 5 workdays after a JV is
    approved, which could be several months prior to the date that auditors review a
    JV package for adequate supporting documentation.

    Redistribution of Funds Disbursed. Of the 70 unsupported JVs, 26 JVs,
    valued at $17 billion, were recorded to redistribute Funds Disbursed - Other
    than Automatic Reimbursement Program (general ledger account No. 10122)
    between organizations for Supply Management, Budget Projects 91 and 92. The
    JVs did not contain sufficient information to evaluate the purpose of the
    adjustment or sufficient documentation of how the adjustment amount was
    calculated. DFAS Cleveland officials agreed that documentation supporting the
    JVs was incomplete. DFAS Cleveland provided a satisfactory written
    explanation of the system problem requiring the adjustments to be made;
    however, that information was not provided until 42 days after we informed
    them of the need for additional information.

    JVs to Record Undistributed Collections and Disbursements. Of the
    70 unsupported JVs, DFAS Cleveland personnel recorded 33 JVs, valued at
    $2 billion, to reconcile or record values related to undistributed transactions.

            Adjustments for Unreconciled Amounts from Navy WCF Field
    Organizations. DFAS personnel recorded 19 of the 33 unsupported JVs,
    valued at $1.4 billion, based on summary-level financial data. DFAS Cleveland
    personnel needed to record these summary-level adjustments for 17 of the
    46 field organizations in the Industrial Fund business area because DFAS
    accounting offices at Charleston, Columbus, Norfolk, Pensacola, and Oakland
    supporting DFAS Cleveland did not adjust inception to date and year to date
    collections and disbursements to agree with the Centralized Expenditure and
    Reimbursement Processing System. The calculations represented the difference
    between collections and disbursements recorded in the general ledger accounts
    for Industrial Fund organizations and the collection and disbursement values in
    the Centralized Expenditure and Reimbursement Processing System. DoD
    Regulation 7000.14-R, volume 4, requires that cash receipts and disbursements
    should be reconciled with appropriate documents and accounting records, as
    applicable within each accounting period.

            Allocation of Undistributed Collections. DFAS personnel recorded
    13 of the 33 JVs, valued at $509 million, to allocate undistributed collections
    between intragovernmental and non-Federal. An allocation was needed because
    DFAS Cleveland did not have the detailed transactions comprising the
    undistributed collections that would provide the correct allocation. The
    allocation applied 79 percent of the undistributed collections to
    intragovernmental and 21 percent to non-Federal. This allocation was made

                                         6
            because the DFAS Director of Accounting directed that undistributed collections
            be recorded against accounts receivable for the financial statement presentation.
            The documentation accompanying the JV did not identify the purpose of the
            allocation or the basis for the allocation ratios. Subsequent to our analysis,
            DFAS Cleveland was able to provide additional documentation to support their
            actions 42 days after we requested the information. However, the inability of
            accounting systems to provide the required data forced DFAS to make the
            unsupported JVs.

                     Undistributed Collections and Disbursements for Navy Component.
            One of the 33 JVs, valued at $49 million, was recorded in the Navy Component
            business area4 of the CDB to account for the differences between undistributed
            collections and disbursements reported to the U.S. Treasury for the Navy WCF
            that were not identifiable to a specific Navy WCF activity group. Component
            business area undistributed collections and disbursements represented the
            difference between all Navy WCF activity group balances and the Navy WCF
            total in the Centralized Expenditure and Reimbursement Processing System.
            This adjustment was unsupported because the detailed transactions for the
            general ledger values were not available from the Centralized Expenditure and
            Reimbursement Processing System. The DFAS Cleveland plan to remedy the
            undistributed collection and disbursement problems, scheduled for completion
            by September 2001, involves the creation and implementation of reconciliation
            procedures and the monitoring of the reconciliations on a monthly basis. We are
            not making recommendations pending the outcome of the DFAS initiatives.

            Other Unsupported JVs. DFAS personnel recorded four JVs, valued at
            $374 million, to the CDB, for which the supporting documentation
            accompanying the JV did not provide sufficient information to evaluate the
            entry. During subsequent meetings, DFAS Cleveland officials agreed that
            documentation supporting the JVs was incomplete and 7 days after we requested
            the information, provided additional support, which documented the entries.

            JVs in DDRS by DFAS Kansas City. DFAS Kansas City recorded the
            remaining 7 of the 70 JVs in DDRS, valued at $55 million, that were
            unsupported. DFAS Kansas City did not provide adequate descriptions
            explaining the purpose of the entries or documentation supporting the amount of
            the entry. For example, two JVs, valued at $36.8 million, were recorded to
            adjust contract authority to reconcile with the annual Year-End Closing
            Statement (FMS 2108) report. However, no documentation was provided to
            show how the reconciliation was performed.

Out of Balance Journal Vouchers
            DFAS Cleveland recorded 61 JVs, valued at $10.7 billion, that were out of
            balance (because debits did not equal credits). The principal purpose of the JVs
            was to correct errors that occurred when data from other DFAS and Navy

4
    The Component business area is not an operational activity unit or group within the CDB, but is rather
    an administrative reporting mechanism used to reflect transactions (primarily collections and
    disbursements) that are not readily identifiable with a single activity or activity group.

                                                       7
            accounting systems were initially recorded in the CDB or when data from the
            CDB were recorded in the Cost of Goods Sold model.5 Therefore, the out of
            balance (improper) JVs were necessary.

            JVs Required to Correct Accounting System and Interface Problems.
            DFAS Cleveland recorded 55 JVs, valued at $9.6 billion, that were out of
            balance, to correct imbalances created when financial data from the Defense
            Business Management System (DBMS) and Material Financial Control System
            were uploaded into the CDB.

                    Defense Business Management System. Of the 55 JVs, 48 JVs, with
            debits valued at $8.5 billion and credits valued at $8.9 billion, were needed to
            correct errors that occurred when trial balances from the DBMS system were
            recorded in the CDB. IG, DoD, Report No. D-2000-140, “Compilation of the
            FY 1999 Department of the Navy Working Capital Fund Financial Statements,”
            June 7, 2000, recommended that DFAS modify DBMS to provide accounting
            data in a format that is compatible with accounting logic in the CDB. DFAS
            responded that changes would not be made to DBMS because it is a legacy
            system and that actions were underway to replace the DBMS with the Business
            Management Redesign system.

                           DBMS Accounting. DFAS Cleveland recorded 27 JVs with total
            debits of $8.5 billion and total credits of $8.9 billion to correct errors resulting
            from accounting differences between the DBMS and CDB. The DBMS did not
            close certain general ledger accounts at year’s end that are closed in the CDB.
            Inception-to-date amounts for those general ledger accounts based on the DBMS
            trial balance would cause out of balance conditions in the CDB and duplication
            of operating results. The DFAS Cleveland accounting entries prevented the
            errors caused by the accounting differences by restating general ledger balances
            at the beginning of the fiscal year.

                            DBMS Reporting. DFAS Cleveland recorded 21 JVs with
            debits valued at $13.7 million and credits valued at $3.4 million to correct
            errors that occurred because the DBMS reported accounting data in a format
            that was not compatible with the posting logic for the CDB and caused the CDB
            to be out of balance after DBMS balances were uploaded. When a transaction
            (total debits and total credits) was out of balance, DFAS departmental
            accounting personnel researched the conversion and posting of the DBMS data
            and recorded a one-sided accounting entry to correct the CDB balance.

                   Material Financial Control System. DFAS Cleveland recorded seven
            JVs to correct problems related to uploading financial data from the Material
            Financial Control System, a financial feeder system used by the Naval Supply
            Systems Command.


5
    The Under Secretary of Defense (Comptroller) and DFAS developed a Cost of Goods Sold model,
    which has been used since FY 1995, to revalue inventory from standard price to an estimation of
    historical cost for financial reporting. Use of the model requires numerous adjustments to several
    general ledger accounts. Both the auditors and DoD management agree that the model has serious
    flaws.

                                                      8
           •   Five one-sided JVs, valued at $1.1 billion, were needed to correct an
               out of balance condition that occurred because the posting logic was
               not correct.

           •   Two one-sided JVs, valued at $166,000, were needed to correct
               erroneous transactions recorded in prior years that caused imbalances
               between the Material Financial Control System and the CDB.

    DFAS Cleveland corrected the posting logic that caused these errors to occur.
    Therefore, we are not making recommendations.

    Journal Voucher Controls. Of the 61 out of balance JVs, 4 JVs, involving
    total debits of $245 million and total credits of $495 million, were recorded to
    correct errors that occurred because DFAS Cleveland accounting personnel
    improperly recorded JVs to the CDB before the DBMS trial balance was
    processed in September 2000. DFAS Cleveland calculated and recorded the
    four JVs to correct the CDB account balances.

    Cost of Goods Sold Model. Of the 61 out of balance JVs, 2 one-sided JVs,
    valued at $898 million, were recorded in the Cost of Goods Sold model to
    correct out of balance conditions in the Cost of Goods Sold trial balance. The
    out of balance condition occurred because DFAS Cleveland recorded prior
    period adjustments in CDB control accounts rather than subsidiary accounts.
    The Cost of Goods Sold model crosswalked the subsidiary account balance
    rather than the control account balance from the CDB trial balance to the Cost
    of Goods Sold trial balance. We are not making recommendations to modify the
    Cost of Goods Sold model because the Under Secretary of Defense
    (Comptroller) has not authorized changes to the model. Instead, the Under
    Secretary of Defense (Comptroller) is proposing a move to historical cost for
    valuation of inventory.


Supervisory Review and Approval of Journal Vouchers
    The DFAS Cleveland, Director of Accounting, issued guidance for supervisory
    review and approval of JVs based on dollar value of the transaction.
    Supervisory review is the principal internal control to ensure that the JVs are
    proper and supporting documentation is adequate. Review of 507 JVs indicated
    that 505 JVs (99.6 percent) were approved at the appropriate supervisory level
    in a timely manner. DFAS Cleveland substantially complied with the Director’s
    policy. DFAS Cleveland’s performance represents a significant improvement
    over prior years.


Summary
    DFAS Cleveland had not yet completed its efforts to implement new accounting
    systems containing both proprietary and budgetary account structures or
    remedied the undistributed collection and disbursement problems in their

                                        9
    entirety. As a result, DFAS Cleveland was required to make entries at the
    departmental level that cannot be supported and subsequently create out of
    balance JVs which must then be recorded in order to correct system interface
    problems. Until field-level accounting systems are in compliance with financial
    regulations and field-level activities are brought into compliance with cash
    accountability standards, the majority of the unsupported and out of balance JVs
    recorded by DFAS Cleveland will continue to be made.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    draft recommendation A.1. to clarify actions necessary to improve management
    controls. We also added DFAS Columbus to the recommendation.

    A.1. We recommend that the Directors, Defense Finance Accounting
    Service Charleston, Columbus, Norfolk, Oakland, and Pensacola comply
    with DFAS guidance for recording Centralized Expenditure and
    Reimbursement Processing System balances, both inception to date and
    current year balances, in the activity general ledgers and reconciling any
    differences.

    DFAS Comments. DFAS partially concurred with the recommendation.
    DFAS stated that the DFAS field organizations currently follow DFAS
    Cleveland guidance requiring the field sites to adjust their monthly ledgers to
    match the Activity Control Ledger in the Centralized Expenditure and
    Reimbursement Processing System. DFAS indicated that the 19 JVs included in
    our report as unsupported were related to prior year balances for collections and
    disbursements. DFAS Cleveland is currently working on a cash rebuild project
    that will reinstate the correct starting balances for cash as of December 1994.
    The estimated completion date is scheduled for September 2001. See the
    Management Comments section for the complete text of DFAS comments.

    Audit Response. We agree that 17 of the 19 JVs affected inception to date
    balances for Funds with Treasury. However, DFAS Cleveland was required to
    record the JVs to correct the inception to date balances because the DFAS field
    organizations did not record prior year Activity Control Ledger amounts in the
    Navy WCF activities general ledger accounts. For the remaining two JVs,
    DFAS Cleveland was required to record for current year collections and
    disbursements for the Navy Research Lab and Fleet Material Support Office
    because DFAS Charleston and DFAS Columbus did not record the Activity
    Control Ledger balances. Actions being taken, including the cash rebuild
    project, will satisfy the intent of the revised recommendation.

    A.2. We recommend that the Directors, Defense Finance and Accounting
    Service Cleveland and Kansas City, reemphasize the requirement for
    departmental accounting and supervisory personnel to provide adequate
    supporting documentation for all journal vouchers.


                                       10
            DFAS Comments. DFAS concurred in principle with the recommendation and
            will emphasize the requirements for adequate supporting documentation shown
            in the DFAS guidance issued on October 5, 2000. DFAS did not agree with
            audit conclusions that seven JVs recorded in DDRS by DFAS Kansas City were
            not supported and provided comments on the supporting documentation for
            those JVs. DFAS indicated that five of the seven JVs were made as a result of
            and in accordance with action items from the Navy WCF Joint Review, 6 which
            was attended by IG, DoD, personnel who did not object. DFAS provided
            specific comments on why it considered each of seven JVs as supported.

            Audit Response. Actions taken by DFAS satisfied the intent of the
            recommendation. The seven unsupported JVs discussed in the IG report
            included three JVs to force the trial balance into agreement with budget
            execution reports and four JVs to correct identified errors.

            The three JVs to force the trial balance into agreement with budget execution
            reports did not provide the level of documentation required by the DFAS
            guidance. Indicating that the need for the adjustment was discussed at the Navy
            WCF Joint Review does not by itself satisfy the documentation requirements.
            The supporting documentation should have included source data and the related
            analysis used to determine which is the correct amount, and documentation
            showing transactions reconciling the trial balance to budget execution reports.
            Forcing agreement of numbers from two different sources, even if required by
            DFAS or Under Secretary of Defense (Comptroller) policy, does not
            automatically constitute support for such a JV if the difference between the two
            numbers cannot be explained.

            The four JVs to correct identified errors were not adequately supported because
            none of the JVs included a complete narrative discussion of the need for the
            adjustment, the source of data in the original entry and why the original entry
            was erroneous, or analysis documenting the correct amount and how that
            amount was determined. Indicating that the need for the adjustments was
            discussed at the Navy WCF Joint Review does not provide sufficient
            information about the need for the adjustment. The information provided in the
            DFAS response to the draft report far exceeded the narrative included in the JV.




6
    DFAS, Department of the Navy, Under Secretary of Defense (Comptroller), and IG, DoD, personnel
    have a joint meeting, usually in early December, to review an early draft of the financial statements to
    identify problems and actions that need to be taken to correct erroneous information or additional
    explanations that should be added to the footnotes to the financial statements. IG, DoD, personnel
    attendance at such meetings does not indicate automatic concurrence for action items or subsequent
    adjustments to the financial statements.

                                                       11
            Finding B. Audit Trails
            The audit trail from the ending trial balance in the CDB to the opening
            balances in the DDRS was not adequately documented. DFAS
            Cleveland accounting personnel adjusted the ending trial balance from
            the CDB to derive the opening trial balance in the DDRS and modified
            crosswalks from the CDB to the DDRS. Adjustments of $5.9 billion
            were not recorded in the CDB but were needed for financial reporting
            purposes. However, documentation supporting the adjustments was not
            sufficient to permit tracing amounts from the source data within the CDB
            to amounts reported on the financial statements by DDRS. This
            occurred because the DFAS Director did not require DFAS Cleveland to
            directly post the CDB trial balance to the DDRS and record all
            subsequent adjustments in the DDRS. As a result, audit trails were not
            available to easily verify that the DFAS adjustments were consistently
            made.

Audit Trail Guidance
     DoD Regulation 7000.14-R, volume 6, chapter 2, “Audit Trails,” requires
     DFAS to ensure that complete and documented audit trails to source transactions
     are maintained to support reports it prepares. DoD Regulation 7000.14-R,
     volume 1, chapter 3, states that audit trails should allow a transaction to be
     traced from initiation through processing to final reports. A key test of the
     adequacy of an audit trail is whether tracing the transaction forward from the
     source or back from the result will permit verification of the amount recorded or
     reported.

Modification of Central Data Base Trial Balance
     The intent of the DDRS was to provide a documented audit trail from source-
     level trial balance data to the general ledger values used to produce the financial
     statements. As part of the compilation process for the FY 2000 Navy Working
     Capital Fund Financial Statements, DFAS Cleveland accounting personnel were
     to provide trial balances from the CDB accounting system as input to the
     DDRS. Adjustments were to be documented and recorded in the DDRS for
     financial reporting purposes. Following the DDRS adjustments, the final DDRS
     trial balance was crosswalked to the various financial reports. In this way the
     integrity of the audit trail from the source to financial reports was to be
     maintained. However, DFAS Cleveland adjusted the ending trial balance from
     the CDB before importing the trial balance data into the DDRS. While the
     adjustments were needed, they were not adequately documented. The
     adjustments were needed because adjustments were recorded for financial
     reporting purposes at the end of FY 1999 that were not recorded in the CDB.
     In addition, adjustments were made to correct differences between control and
     subsidiary account balances.

     Adjustments for Financial Reporting Purposes. As part of the preparation of
     the FY 2000 Navy Working Capital Fund Financial Statements, DFAS

                                         12
Cleveland had to adjust the ending trial balance from the CDB because
adjustments were recorded for financial reporting purposes at the end of FY
1999 that were not recorded in the CDB and other adjustments were needed for
financial reporting at the end of FY 2000. The $5.9 billion of adjustments,
which impacted the financial statements but were not recorded in the CDB
included:

   •   adjustments to restate accumulated operating results (these included
       adjustments to recognize the actuarial liability for workers compensation
       benefits and eliminating entries at the end of FY 1999), and

   •   adjustments to record assets and liabilities related to the afloat pre-
       positioning ships.

DFAS Cleveland also calculated the change during the accounting period for the
12 subsidiary accounts comprising Accumulated Operating Results (general
ledger account No. 3310) and reclassified the amounts as Transfers In,
Transfers Out and Other Financing Sources.

We were able to recreate the basis for these adjustments as a result of additional
information provided during numerous discussions with DFAS Cleveland
accounting personnel. However, DFAS Cleveland should have recorded the
adjustments in the DDRS after the CDB trial balance was imported. In
addition, DFAS Cleveland should establish a standard operating procedure that
includes standard documentation for these types of adjustments.

Use of Control Account. DFAS Cleveland accounting personnel modified the
crosswalk for Funds Balance with Treasury for the Component business area.
Instead of using the subsidiary account balances, as prescribed by the crosswalk,
accounting personnel used the control account balances (general ledger account
No. 1010). The accounting personnel modified the crosswalk because
transactions of $43.6 million were recorded in the CDB to the control account
instead of a subsidiary account. Recording transactions to the control account
does not comply with DoD Regulation 7000.14-R. The adjustment should have
been documented as a JV and recorded in the CDB at the end of FY 2000.
However, the imbalance was not detected before the CDB accounting records
were closed. DFAS Cleveland subsequently recorded a JV in CDB to correct
the control – subsidiary account balances. Accordingly, we are not making
further recommendations.

Budgetary Accounts. DFAS Cleveland did not sufficiently document the
crosswalks used to convert budgetary accounts in the CDB to the USGSGL
format used in the DDRS. As a result, we were not able to trace the budgetary
account balances from the CDB trial balance to the opening balances in the
DDRS.




                                     13
Summary
    The intent of the DDRS was to provide a documented audit trail from source-
    level trial balance data to the general ledger values used to produce the financial
    statements. However, because certain adjustments are recorded for financial
    reporting purposes only that are not recorded in the CDB, DFAS Cleveland
    modified the CDB data input to the DDRS. DFAS Cleveland personnel did not
    adequately document the modifications that occurred between the CDB trial
    balance and the opening balances input to the DDRS. In other instances, DFAS
    Cleveland accounting personnel modified the CDB trial balance for adjustments
    that should have been documented and recorded as JVs in either the CDB or the
    DDRS. Until standard operating procedures are established and standard
    documentation is developed, the audit trail from the CDB to the DDRS will not
    be adequate.


Recommendations, Management Comments, and Audit
  Response
    B. We recommend that the Director, Defense Finance and Accounting
    Service Cleveland:

          1. Import the Central Data Base trial balance to the Defense
    Departmental Reporting System without modification.

    DFAS Comments. DFAS nonconcurred and stated that changes occurred after
    the CDB was closed that necessitated changes in the DDRS trial balance. In
    addition, an audit trail from the CDB ending trial balance to the DDRS
    beginning trial balance had been created using a spreadsheet application.

    Audit Response. We disagree with the DFAS position. We believe that the
    offline spreadsheet could be used as supporting documentation for a JV recorded
    in DDRS. We were not able to validate the reliability of audit trails in the
    offline spreadsheet application that DFAS Cleveland used to prepare the
    FY 2000 financial statements because DFAS Cleveland did not provide the
    spreadsheets in a timely manner. The DDRS has a JV process that was created
    expressly for the purpose of allowing all JVs to be documented and subjected to
    internal control procedures. The use of an offline application to modify the
    CDB trial balance before it was imported to the DDRS defeated the internal
    controls envisioned by the JV process. We request that DFAS reconsider its
    position on the recommendation and provide comments on the final report.

          2. Develop standard operating procedures and standard
    documentation to adjust accumulated operating results and record the
    journal voucher in the Defense Departmental Reporting System.

    DFAS Comments. DFAS concurred that standard operating procedures and
    standard documentation were needed. The procedures and documentation to
    adjust the accumulated operating results should be in place by September 2001.

                                        14
DFAS did not concur that the adjustments to accumulated operating results
should be made via the formal JV process. DDRS beginning trial balance must
coincide with the ending trial balance data from the prior period. Standard
operating procedures and documentation will be maintained to provide an audit
trail from the CDB to DDRS.

Audit Response. Management comments were partially responsive. We agree
with the DFAS proposal that standard procedures and documentation for
maintaining an offline spreadsheet be adopted by September 2001. However,
we believe that the offline spreadsheet should be used as supporting
documentation for a JV recorded in the DDRS. The DDRS included a JV
module so that all adjustments made to the original trial balance data would be
documented and subjected to internal control procedures. We do not believe
there is a valid reason for not recording the adjustment within the DDRS. We
agree that the beginning trial balance within DDRS should coincide with the
ending trial balance from the prior period. If necessary, entries made for
financial reporting purposes can be reversed at the beginning of the following
accounting period within DDRS. We request that DFAS reconsider its position
and provide comments on the final report.

      3. Improve crosswalks and develop complete documentation used to
populate budgetary information from other sources to the Defense
Departmental Reporting System.

DFAS Comments. DFAS concurred and indicated that complete documentation
and audit trails will be maintained and available by September 2001, for
budgetary information found in DDRS.




                                   15
Appendix A. Audit Process

Scope
    We examined the processes and procedures used to prepare the Navy Working
    Capital Fund Financial Statements. Our review included an evaluation of
    procedures and controls over processes to consolidate and adjust financial data
    from Navy field organizations and other sources to prepare the FY 2000 Navy
    Working Capital Fund Financial Statements. The FY 2000 Navy Working
    Capital Fund Financial Statements reported total assets of $25.1 billion, total
    liabilities $6 billion, earned revenue of $13.7 billion, and program costs of
    $13.6 billion.

    Limitations to Audit Scope. We did not examine the transactions supporting
    the financial data that Navy field organizations and other sources submitted. In
    addition, we did not evaluate the 173 JVs, valued at $37.5 billion, that were
    recorded in DDRS to allocate intragovernmental transactions. Those JVs are
    discussed in IG, DoD, Report No. D-2001-139.

    Audit of the FY 2000 Navy Working Capital Fund Financial Statements.
    We delegated the audit of the FY 2000 Navy Working Capital Fund Financial
    Statements to the Naval Audit Service. The Naval Audit Service disclaimed an
    opinion on the FY 2000 Navy Working Capital Fund Financial Statements, and
    we endorsed this disclaimer. The Naval Audit Service performed work at the
    Navy field organizations to reconcile financial data submitted by the
    organizations to DFAS and the subsidiary records at the organizations. We
    performed audit work on JVs recorded to financial data after receipt of the data
    into the CDB system.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate-level goal, subordinate performance
    goal, and performance measures.

           FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-02)

           FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
           and information management. (01-DoD-2.5)

           FY 2001 Performance Measure 2.5.1: Reduce the number of
           noncompliant accounting and finance systems. (01-DoD-2.5.1.).



                                       16
           FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
                                       −DoD-2.5.2.).
           on financial statements. (01−

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

           Financial Management Area. Objective: Strengthen internal controls.
           Goal: Improve compliance with the Federal Managers’ Financial
           Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.


Methodology
    We reviewed the process that DFAS Cleveland used to record, consolidate, and
    summarize financial information from Navy field-level organizations and other
    sources.

    We reviewed the procedures and management controls over JVs and accounting
    entries recorded by DFAS Cleveland, DFAS Kansas City, and the Naval Supply
    Systems Command. DFAS Cleveland recorded 672 JVs, valued at
    $185.2 billion, in the CDB that affected the FY 2000 Navy Working Capital
    Fund Financial Statements. We reviewed 378 of the 672 JVs. We limited our
    review to JVs in excess of $100 million that were recorded during the period
    October 1999 through August 2000 and all JVs recorded during September
    2000. We also reviewed 24 JVs, valued at $721.4 billion, that DFAS Cleveland
    recorded in the Cost of Goods Sold model at fiscal year’s end. In addition, we
    reviewed all of the 105 JVs that DFAS Cleveland and DFAS Kansas City
    recorded in the DDRS.

    Use of Computer-Processed Data. DFAS Cleveland used the CDB to
    consolidate and summarize financial information recorded in various field-level
    systems. We did not evaluate the financial information reported to the CDB,
    nor did we evaluate the general or application controls over the CDB. We
    concluded that the data were sufficiently reliable to meet the audit objective.
    Not evaluating the controls did not affect the results of the audit.

    Audit Type, Period, and Standards. We performed this financial related audit
    from August 2000 through April 2001 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. We did our work in accordance with generally
    accepted Government auditing standards except that we were unable to obtain an
    opinion on our system of quality control. The most recent external quality
    control review was withdrawn on March 15, 2001, and we will undergo a new
    review.

                                       17
    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available upon request.



Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the management controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of DFAS Cleveland and DFAS Kansas City management controls over
    the posting and approving JVs in the CDB and DDRS for the preparation of the
    FY 2000 Navy Working Capital Fund Financial Statements. We did not assess
    management’s self-evaluation of those controls.

    Adequacy of Management Controls. We identified a material management
    control weaknesses as defined by DoD Instruction 5010.40 in the overall
    compilation process related to recording JVs. We did not consider the problems
    specifically discussed in this report to be material management control
    weaknesses. However, the overall compilation procedures, which include JVs
    to force buyer-side data to agree with seller-side data could not be supported;
    and the inability of DFAS Cleveland to reconcile these differences is considered
    to be a material management control weakness. Discussion of JV procedures
    and the processes for accounting for intragovernmental transactions are
    discussed in IG, DoD, Report No. D-2001-139.


Prior Coverage
    As part of our audit coverage of the FY 2000 Navy Working Capital Fund
    Financial Statements, we issued the following reports:

           •   Inspector General, DoD, D-2001-139 “Compiling and Reporting
               FY 2000 Navy Working Capital Fund Intragovernmental
               Transactions,” June 18, 2001

           •   Inspector General, DoD, Report No. D-2001-108 “Recognition of
               Revenues and Expenses in the Defense Business Management
               System,” April 27, 2001




                                       18
      •   Inspector General, DoD, Report No. D-2001-057 “Inspector
          General, DoD, Oversight of the Naval Audit Service Audit of the
          FY 2000 Navy Working Capital Fund Financial Statements,”
          February 21, 2001

      •   Inspector General, DoD, Report No. D-2001-022 “Inventory
          Revaluation for the Navy Working Capital Fund by the Naval Supply
          Systems Command,” December 18, 2000

The General Accounting Office and the Inspector General, DoD, have
conducted multiple reviews related to financial statement issues. General
Accounting Office reports can be accessed on the Internet at
http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
Internet at http://www.dodig.osd.mil/audit/reports.




                                 19
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service, Cleveland
   Director, Defense Finance and Accounting Service, Kansas City

Non-Defense Federal Organization
Office of Management and Budget




                                           20
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         21
22
Defense Finance and Accounting Service
Comments




                   23
       Final Report
         Reference




     Revised




24
25
26
27
28
29
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Marvin L. Peek
Joel K. Chaney
Carrie A. Wade
William E. Hosick
Mark J. Thomas
Vanessa L. Ash
Lisa C. Rose-Pressley
